Washington, D.C. 20530

October 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Alfred H. Siegel, Trustee of the Circuit City Store,
Inc. Liquidating Trust v. John P. Fitzgerald, III,
Acting United States Trustee for Region 4.,
S.Ct. No. 21-441
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 20,
2021, and placed on the docket on September 22, 2021. The government’s response is due on
October 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0441
SIEGEL, ALFTED H., TRUSTEE OF THE CIR. CITY
STORE, INC
JOHN P. FITZGERALD, III, ACITNG US TRUSTEE
FOR REGION 4

DANIEL L. GEYSER
HAYNES AND BOONE, LLP
22 VICTORY AVENUE,
STE. 700
DALLAS, TX 75219
303-382-6219
DANIEL.GEYSER@HAYNESBOONE.COM

